                                            <)11'1('I' 0 1 ' INSPECTOR GENERAL                       NAI'ION,II.KII;NC-I.' I ' ( I I . X I I I I ( 1
                                                                                                                                                   s
                                              OI:I:ICE 01: INVESI'IGATIONS


    I t                               ACTION MEMORANDUM
        TO: AIGI                                                        FILE NUMBER                  DATE
                                                                        1-99040008                   May 15,2001


    1                                                               1   OFFICE OF ORIGIN
                                                                        NSF/OIG                  I   PREPARING OFFICE
                                                                                                     NSF/OIG




                                                                           upon a Confidential Source (CS), who alleged
                                                                        . CS stated a f f i c i a I inflated the lease rates
                                                                          contracts. In addition, the official's
(       spouse managed the real estate fiorn which she received $2,000 a month.
                                                                                                                                                           I
    On January 26,2000, Assistant United States Attorney
                                                                   a   irmative Civil Enforcement, Houston, ,
    Texas, was briefed on the results of an investigation conducted y NASA, DCAA and DCIS. In essence, tbey
    concluded that the costs questioned were not passed to the Government.

    Based upon their findings, the investigation is closed. A management control deficiency report will not be,                                        ,
    issued and no other judicial or administrative action will be taken, since there was no identified loss to the
    Government.




COPIES MADE:                                                                                     (For Headquarters Use)


                                                                                                  -------------------

SURNAME               PREPARED BY                          CLEARED BY            CLEARED BY
L TITLE



INITIALS
& DATE
